<html>
<title> - A SOLUTION IN SEARCH OF A PROBLEM:. EPA'S METHANE REGULATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      A SOLUTION IN SEARCH OF A PROBLEM:
                       EPA'S METHANE REGULATIONS

=======================================================================

                                 HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 15, 2016

                               __________

                           Serial No. 114-93

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                             ____________
                             
                             
                     U.S. GOVERNMENT PUBLISHING OFFFICE
22-562PDF                    WASHINGTON : 2017                     
________________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
                           
                           C O N T E N T S

                           September 15, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    12

                               Witnesses:

Mr. Erik Milito, Director, Upstream and Industry Operations, 
  American Petroleum Institute
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. Bernard Weinstein, Professor, Associate Director, Maguire 
  Energy Institute, Cox School of Business, Southern Methodist 
  University
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Elgie Holstein, Senior Director for Strategic Planning, 
  Environmental Defense Fund
    Oral Statement...............................................    30
    Written Statement............................................    32

Mr. Anthony J. Ventello, Executive Director, Progress Authority
    Oral Statement...............................................    39
    Written Statement............................................    42
Discussion.......................................................    70

             Appendix I: Answers to Post-Hearing Questions

Mr. Erik Milito, Director, Upstream and Industry Operations, 
  American Petroleum Institute...................................    86

Mr. Elgie Holstein, Senior Director for Strategic Planning, 
  Environmental Defense Fund.....................................    91

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   100

Documents submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   101

Documents submitted by Representative Donna F. Edwards, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   106

Documents submitted by Suzanne Bonamici, Ranking Minority Member, 
  Subcommittee on Enviorment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   118

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   120

 
                   A SOLUTION IN SEARCH OF A PROBLEM:.
                       EPA'S METHANE REGULATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2016

                  House of Representatives,
               Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Jim Bridenstine 
[Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bridenstine. All right. We're going to go ahead 
and get started. We have votes happening between 10:00 and 
10:30, so we're going to start just as soon as we can here if 
our witnesses can take their positions.
    When we break for votes, we'll come back here and continue 
the hearing immediately following votes. I think we'll only 
have one vote, so it shouldn't take too long and get as much 
information as we can before we all fly home for the weekend.
    The Subcommittee on the Environment will come to order. 
Without objection, the Chair is authorized to declare recesses 
of the subcommittee at any time.
    Welcome to today's hearing entitled ``A Solution in Search 
of a Problem: EPA's Methane Regulations.'' I recognize myself 
for five minutes for an opening statement.
    Today's hearing will examine the impact of the 
Environmental Protection Agency's recent regulatory activity on 
methane gas. We will also discuss implementation, economic 
impacts, and other associated issues regarding the methane 
rules at the national and the state level.
    I am concerned about the EPA's expansive interpretation of 
its regulatory scope and its continued use of questionable 
scientific bases for rulemaking. My concern extends to the 
EPA's methane rule.
    This past May, EPA Administrator McCarthy stated that she 
will expedite issuing regulations for reducing methane 
emissions from existing sources. Rather than expedite methane 
regulation, EPA should take a breath and realize that the best 
available science does not support new rulemaking. But once 
again, EPA is back at it with cherry-picking and fudging data 
to fit a politically driven agenda aided by a cabal of 
establishment environmentalists.
    A study published earlier this year by National Oceanic and 
Atmospheric Administration scientists found that the expansion 
of oil and gas production is not to blame for a global increase 
in methane emissions. That was NOAA. That was their study. And 
according to the study's author, ``The U.S. energy industry 
contributes little to the overall burden of global fossil fuel 
emissions.'' According to this NOAA study, wetlands, which 
naturally generate methane, and agriculture from sources 
outside the United States are the main contributors to 
emissions.
    Here at home, the oil and gas industry has drastically cut 
methane emissions through responsible voluntary efforts. 
Technological advances under development and implemented by 
industry will only lead to further reductions, without the need 
for costly and burdensome EPA regulations.
    Leading energy researchers, including the National Economic 
Research Associates, dispute and challenge EPA's claims that 
reducing methane leaks by 45 percent by 2025 will be equivalent 
to shutting down one third of the world's coal-fired power 
plants. EPA is simply exaggerating their claims. A study by 
NERA concludes that the supposed benefits from EPA's methane 
rules are highly uncertain and very likely overstated.
    The actual reduction in global temperatures is also 
minimal. Energy In Depth found that the rules would reduce 
global temperatures by a mere 4/1000 of a degree Celsius over 
the next 84 years, 4/1000 of a degree Celsius. We can't even 
measure that. Even if we shut down and stopped all American oil 
and gas production, it will have no impact on global 
temperatures.
    And the cherry-picking of the science does not stop there. 
Issues of data integrity have continually dogged EPA during and 
after the regulatory process behind the methane rules. Before 
the final methane rule for new sources was released, the EPA 
conveniently increased its estimates of methane emissions from 
petroleum and natural gas systems without specifically 
identifying these emissions. It conveniently revised the 
greenhouse gas inventory for methane, adding 85 million metric 
tons to the U.S. methane emissions. Of course, EPA released 
this report ahead of their final rule.
    And it gets worse. In order for EPA to justify their new-
found activism, EPA assumed that the emissions from marginal 
wellheads, their profiles were similar to those of higher-
producing wells and claimed the use of ``new methodology.'' 
However, EPA had previously admitted that marginal wells have 
``inherently low'' emissions.
    What is clear and supported by the facts is that the recent 
economic boom is real. Communities have benefited tremendously 
from the resurgence of natural gas extraction when extracted 
safely and efficiently and responsibly. While states like New 
York have seen good-paying jobs and the associated economic 
benefits go to the wayside because of their moratorium on 
hydraulic fracturing for natural gas extraction, States like my 
State of Oklahoma have experienced the opposite.
    Ranking fifth in energy production, Oklahoma practices an 
all-of-the-above strategy when it comes to energy. Last year, 
Oklahoma produced an all-time high, 2.5 trillion cubic feet of 
natural gas. That number indicates a 50 percent increase in 
production over ten years. The increased production of natural 
gas has coincided with a decrease in methane emissions. In the 
last ten years, the state of Oklahoma has increased its 
production of natural gas by 50 percent, and it has coincided 
with a decrease in methane emissions.
    Oklahoma is leading the way in demonstrating that 
responsible exploration and production with industry-led 
voluntary emission reduction practices realizes decreased 
emissions without burdensome mandates from the EPA. I would 
also like to applaud my Attorney General, Scott Pruitt, for 
joining the lawsuit challenging the methane emissions 
regulations.
    As we will hear today, the shale revolution has changed the 
U.S. economy and has been responsible for creating good-paying 
jobs. Instead of focusing on environmental protection, however, 
the EPA is now pursuing a war on natural gas.
    I want to thank each of our witnesses for coming. I look 
forward to hearing your testimonies. And I will yield back the 
balance of my time, of which there is none remaining.
    [The prepared statement of Chairman Bridenstine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I will now recognize the Ranking 
Member from Oregon, Ms. Bonamici, for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here today.
    Methane leaks and releases are a real problem for the 
health and safety of Americans across the country. Unlike the 
billowing smoke that rises from some coal-fired power plants, 
methane releases and leaks are nearly indistinguishable to a 
passerby. Oftentimes, environmental repercussions stemming from 
atmospheric pollution are easy to recognize. Higher ozone 
levels reduce visibility in the form of smog, which is easy to 
see. Higher concentrations of carbon dioxide in the atmosphere 
are ultimately absorbed by the ocean, resulting in a more 
acidic ocean that has a visible impact on shellfish in coastal 
economies.
    Methane emissions have similar environmental repercussions, 
but because methane is colorless and odorless, it is easy to 
forget that it is a highly potent greenhouse gas. Once methane 
is released into the atmosphere, it is 80 percent more potent 
than carbon dioxide for the following 20 years in terms of its 
effect on the climate.
    I'd like to put up a slide that will better provide an 
understanding of what a methane leak looks like.
    [Slide.]
    Ms. Bonamici. Last fall, a natural gas storage tank at 
Aliso Canyon outside of Los Angeles began leaking methane at an 
alarming rate. The leak was discovered by the gas company on 
October 23, and it took 4 months for that leak to be completely 
fixed. In that time, those plumes continued to rise and 
thousands of gallons of methane poured into the atmosphere; 
8,000 residents were displaced from their homes for months; 
residents suffered headaches, nosebleeds, and nausea.
    And just to clarify, here on the right there is infrared 
camera revealing the wafting cloud of methane over the Aliso 
Canyon.
    Incidents like this highlight the importance of EPA's 
methane regulations, specifically the leak detection component. 
Although the new rule only addresses methane emissions at new, 
reconstructed, and modified oil and gas sources, it represents 
an important first step, a step that needs to be made so that 
the problems of today are not the problems of tomorrow.
    We don't want another Aliso Canyon. We need to work 
together so that we do not have methane emissions in our 
country. I look forward to discussing this important issue 
today. I want to allow plenty of time for the witnesses, so I 
yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Ms. Bonamici follows:]
    [GRAPHIC] [TIFF OMITTED] T2562.005
    
    Chairman Bridenstine. The gentlelady yields back the 
balance of her time. I now recognize the Chairman of the full 
committee, Mr. Smith, for five minutes.
    Chairman Smith. Thank you, Mr. Chairman.
    I just want to say to our panelists here today, a vote has 
been called and so we'll be interrupted, regrettably. And 
furthermore, it's oftentimes difficult to get members to come 
back after the last vote of the day. They're running to the 
airport and so forth. So if our attendance is not as great as 
we would like, that doesn't diminish the value of your 
testimony today.
    Mr. Chairman, the Environmental Protection Agency has 
become an agency that promotes an extreme political agenda 
rather than reasonable policies based on sound science. The EPA 
knows its regulatory agenda would have little to no significant 
impact on the environment. But that hasn't stopped the EPA from 
imposing some of the most expensive and expansive regulations 
in its history.
    These rules will cost billions of dollars, place a heavy 
burden on American families, and diminish the ability of 
American businesses to compete around the world. EPA's 
political agenda is to rearrange the American economy and 
institute ``command and control'' by the Obama Administration.
    This committee's investigations have revealed that the EPA 
intentionally chooses to ignore good science. EPA cherry-picks 
the science that fits its agenda and ignores the science that 
does not support its position. When the science falls short, 
EPA resorts to propaganda campaign techniques designed to 
mislead the public.
    Today's hearing will examine yet another EPA regulation 
that has relied on suspect science, questionable legal 
interpretations, and flawed analysis to justify its existence.
    Like all regulations promulgated by the EPA, the methane 
regulation is no different. It stifles economic growth, 
destroys American jobs, and increases energy prices. That means 
costs will rise, from electricity to gasoline to food, 
disproportionately hurting low-income Americans.
    According to Energy In Depth, by the end of this century 
the EPA's supposed benefits from the final methane rule for new 
sources will only result in a reduction--now, the Chairman just 
mentioned this a moment ago--reduction of 4/1000 of one degree 
Celsius in temperature rise. That is incredible.
    Recent studies involving National Oceanographic and 
Atmospheric Administration scientists conclude that the rise in 
methane emissions are not due to the oil and gas sector, which 
are the target of the EPA's regulations. These scientists 
conclude that the likely rise in methane emissions are from 
natural sources like tropical wetlands.
    Emissions from the oil and gas sector continue to decrease 
in large part because of the voluntary emissions reductions 
programs and advances in technologies. This indicates the 
futility of new and burdensome EPA regulations. During the last 
year, federal courts have halted several of EPA's major 
regulations. Many of these regulations trample on the 
constitutional rights of individuals and rely on suspect legal 
interpretations of the law.
    EPA's methane rule relies on faulty scientific evidence and 
data, and the final rule constitutes an abuse of authority. For 
this reason, my home state of Texas, along with North Dakota, 
are planning to pursue legal action. Instead of wasting 
taxpayers' money on frivolous rules that do little to protect 
the environment, the EPA should spend its resources on 
developing sound science that will lead to technological 
breakthrough.
    The methane rule is more of the same from the EPA: a costly 
and burdensome regulation that is all pain and no gain.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T2562.006
    
    [GRAPHIC] [TIFF OMITTED] T2562.007
    
    Chairman Bridenstine. Thank you, Mr. Chairman.
    What we're going to do now is recess. We have one vote. 
I'll be right back to introduce the witnesses and hear your 
testimony. So until we get back from voting, we'll be in 
recess. Thank you.
    [Recess.]
    Chairman Bridenstine. The Subcommittee on Environment will 
come back to order.
    Let me introduce our witnesses. Our first witness today is 
Mr. Erik Milito, Director of Upstream and Industry Operations 
at the American Petroleum Institute. Mr. Milito received his 
bachelor's degree in business administration from Notre Dame 
and his law degree from Marquette University.
    Our next witness today is Dr. Bernard Weinstein--
Weinstein--Weinstein?
    Dr. Weinstein. Weinstein.
    Chairman Bridenstine. Stein, got it. I'm Bridenstine so 
everybody calls me Bridenstine so--Professor and Associate 
Director at the Maguire Energy Institute at Southern Methodist 
University's Cox School of Business. Dr. Weinstein received his 
bachelor's degree in public administration from Dartmouth 
University and his master's degree and Ph.D. in economics from 
Columbia.
    Our third witness today is Mr. Elgie Holstein----
    Mr. Holstein. Holstein.
    Chairman Bridenstine. Holstein, got it--Senior Director for 
Strategic Planning at the Environmental Defense Fund. Mr. 
Holstein received his bachelor's degree from Syracuse 
University.
    Our final witness today is Mr. Anthony Ventello, Executive 
Director of Progress Authority. Mr. Ventello received his 
bachelor's degree in geographic and regional planning from 
Mansfield University, his master's degree in public 
administration from Marywood University, and his American 
Economic Development Council certification from Penn State.
    I now recognize Mr. Milito for five minutes for your 
opening testimony.

            TESTIMONY OF MR. ERIK MILITO, DIRECTOR,

               UPSTREAM AND INDUSTRY OPERATIONS,

                  AMERICAN PETROLEUM INSTITUTE

    Mr. Milito. Thank you, Chairman Bridenstine, Ranking Member 
Bonamici, and Members of the Subcommittee.
    My name is Erik Milito, and I'm the Director of Upstream 
and Industry Operations for the American Petroleum Institute. 
We have witnessed a dramatic transformation of the energy 
landscape over the past ten years both here in the United 
States and globally. Looking back ten years ago, we spoke in 
terms of energy scarcity, and the expectation was that we as a 
country would be importing billions of dollars of natural gas 
from places like the Middle East, Russia, and West Africa. The 
outlook was the same on the petroleum side. We were expecting 
U.S. oil production to flatten or decline to about 5 million 
barrels per day.
    Fortunately, we have experienced an energy resurgence that 
has brought with it tremendous benefits for everyday Americans. 
We as a nation rely on oil and natural gas in everything that 
we do from getting to work, getting our kids to school, to 
heating and cooling our homes, and to using the stovetop to put 
dinner on the table.
    Because of innovation and the advancement of engineering 
technologies such as hydraulic fracturing and horizontal 
drilling, the United States is now the world's largest natural 
gas producer. And on the petroleum side, we've increased our 
production from 5 million barrels per day in 2009 to a peak of 
9.4 million barrels a day, and this is all because of advanced 
technology, hydraulic fracturing, horizontal drilling, and 
being able to tap into those resources in our shale formations.
    Clearly, we now speak in terms of energy abundance. 
Consumers are the first ones to benefit from our energy 
resurgence. A recent study by IHS concludes that the average 
household had an additional $1,300 in 2015 because of U.S. 
shale gas production. AAA estimates that the average American 
saved $550 at the pump in 2015, and this also relates to U.S. 
crude oil production.
    We have also seen major benefits from a global geopolitical 
and energy security standpoint. The United States now plays a 
major role in global energy markets, and this has helped our 
allies tremendously because there are now greater, more diverse 
energy supplies on the global market.
    We have proven as a nation and as an industry that we are 
able to achieve these economic and national security benefits 
while not only protecting the environment but by providing 
tangible environmental benefits. From a climate standpoint, the 
United States has seen its greenhouse gas emissions dropped to 
20-year lows. This is directly attributable to the increased 
use of clean-burning, abundant, affordable natural gas in the 
power generation sector. Not only has natural gas helped us 
achieve important reductions in greenhouse gas emissions, but 
it also produces little to no particulate matter, nitrogen 
dioxide, and sulfur dioxide, contributing to cleaner air for 
all Americans.
    Interestingly enough, in spite of this dramatic increase in 
U.S. production of natural gas, emissions of methane from our 
industry have decreased over the past 20 years. Now, the story 
here is the same. We've accomplish this by advancing the 
technologies to ensure that we are capturing methane, which is 
the primary component of natural gas. We have shown that the 
solution to addressing methane emissions is through the 
development and application of technologies through innovation, 
not through a command-and-control regulatory approach that can 
effectively stifle innovation and add unnecessary costs.
    I'd like to point out that methane emissions were declining 
before EPA promulgated any regulations, demonstrating that 
these regulations are simply not necessary. Our policies should 
effectively promote U.S. energy production and the benefits for 
everyday Americans, not jeopardize the success that we have 
achieved and that we should continue to achieve with smart 
policy choices.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Milito follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you for your testimony.
    Dr. Weinstein, you're recognized for five minutes.

              TESTIMONY OF DR. BERNARD WEINSTEIN,

                 PROFESSOR, ASSOCIATE DIRECTOR,

                   MAGUIRE ENERGY INSTITUTE,

                    COX SCHOOL OF BUSINESS,

                 SOUTHERN METHODIST UNIVERSITY

    Dr. Weinstein. Thank you, Mr. Chairman, Members of the 
Committee, for the opportunity to speak today. I'm Bernard 
Weinstein. I'm Associate Director of the Maguire Energy 
Institute, as the Chairman mentioned, and we do a bunch of 
things at the Institute. We do student education, professional 
development, and we also do research on energy issues and 
policies. And we've worked for a number of organizations, done 
studies for--most recently for the Small Gasoline Retailers 
Coalition, we've worked with the Nuclear Energy Institute, 
Consumer Energy Alliance. We've done some work for the American 
Wind Energy Association, so we're across the board when it 
comes to energy.
    But we're here to talk about methane, especially errant 
methane, and we all know this is a potent greenhouse gas and we 
don't want a lot of it going into the air. Recently, as you 
know, EPA did finalize a rule requiring drilling companies to 
install new monitoring equipment on production and transmission 
of oil and natural gas. EPA itself estimates the compliance 
costs will reach about $530 million annually by 2025. And 
they're also developing new regs for existing wells and 
processing equipment.
    And the question is, and I guess the question of this 
hearing is do we really need more federal intervention, more 
regulatory oversight? How big a problem are we dealing with? 
And if you could put up the first slide.
    [Slide.]
    Dr. Weinstein. Mr. Milito mentioned this, but you can see 
that U.S. methane emissions today are lower than they were in 
1990. And when you consider that the economy is 75 percent 
larger and that oil and gas production has nearly doubled, that 
is a pretty amazing accomplishment.
    And what's more, again, as Mr. Milito mentioned, only about 
23 percent of errant methane is attributable to the oil and gas 
industry, and that's been declining. Emissions from fracked 
wells are down 79 percent, down 94 percent from pipelines. 
There are other sources of methane, as we all know, that 
probably contribute a lot more: wetlands, agriculture, 
landfills, et cetera.
    We heard the Chairman talking about different studies. I 
refer to those studies in my final testimony so I won't repeat 
the findings. But even if we did shut in all of our oil and gas 
wells, that would have little or no impact on the environment 
as long as other countries continue doing what they're doing. I 
mean, you know, China builds a new coal plant every week. 
Turkey just announced they're building 30 new coal plants. They 
are 50 or 60 on the drawing board in India.
    And so I think we need a dose of realism when we talk 
about, you know, what we can do in the United States. And I 
would argue that we've done a lot. If you put the next slide 
up----
    [Slide.]
    Dr. Weinstein. --carbon emissions--again, we've already 
heard this--have dropped dramatically over the past decade. You 
can see that on the right. They dropped by about, you know, 1 
trillion tons per year, which again is pretty incredible.
    And why has this happened? It's because we're using more 
natural gas and because we're substituting natural gas in power 
generation for coal, we're using more natural gas in 
transportation, we're using more natural gas in industrial 
boilers, and that is helping to clean up the environment. Now, 
I would argue that greater use of natural gas, not EPA 
regulations, deserves most of the credit for our reductions in 
greenhouse gases, and to some degree methane.
    So I'm an economist. Economists, I think, would all agree 
that regulation is not cost-free. And if you're going to impose 
new regulations, there are going to be economic consequences. 
As you know, the oil and gas industry has been under some 
stress of late. I'm not sure it would make a lot of political 
sense to apply new regulations, new costs on the industry 
today, especially because the industry on its own has taken 
steps to capture errant methane.
    I would argue that voluntary and market-based solutions to 
reducing methane make a lot more sense and can probably achieve 
the Administration's goals better than new EPA regulations. If 
we monitor everything, we're simply wasting resources.
    In my prepared testimony, I discuss a voluntary program 
called ONE Future in which a number of gas producers are 
working with EDF to reduce methane leaks to less than one 
percent of production. Maybe Mr. Holstein is going to talk 
about that program. I don't believe they're doing that out of 
environmental altruism. I think they're doing it because it 
makes economic sense because methane has value, so why wouldn't 
you want to capture it? It's used for power, it's used for 
heating, it's used for transportation, it's used for 
petrochemicals. If there are market-based or voluntary 
solutions that can achieve the goals of regulation at lower 
cost, those are the ones that should be pursued first.
    So thanks for your attention. I'm happy to answer any 
questions at the appropriate time.
    [The prepared statement of Dr. Weinstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Dr. Weinstein.
    Mr. Holstein, you're recognized for five minutes.

                TESTIMONY OF MR. ELGIE HOLSTEIN,

            SENIOR DIRECTOR FOR STRATEGIC PLANNING,

                   ENVIRONMENTAL DEFENSE FUND

    Mr. Holstein. Thank you very much, Mr. Chairman. Chairman 
Smith, nice to see you again. And, Ranking Member Bonamici, 
Members of the Subcommittee, I'm very grateful for this 
opportunity to discuss the role of methane with you today as a 
potent greenhouse gas pollutant and the need for EPA's rules to 
guide the industry in minimizing those emissions.
    Our scientific understanding of the extent of methane 
pollution and its effects has been growing steadily, and mostly 
in the last several years have we been getting a better 
scientific handle on the extent of the pollution and its 
impacts. But there is no question at this point that methane is 
a powerful and harmful climate pollutant.
    As Ms. Bonamici mentioned, over the first 20 years 
following its release methane is some 84 times more potent than 
CO<INF>2</INF> in terms of the climate damage that it does. So 
while CO<INF>2</INF> is of concern and does represent a 
continuing long-term threat, methane drives near-term climate 
effects. The result is that 25 percent of the global warming we 
are experiencing right now is due to methane emissions, and 
that's why we need action to address both sides of that 
equation.
    Across our economy, the oil and gas sector represents 33 
percent of U.S. methane emissions, and it's the largest of all 
industrial U.S. sources. EPA's latest inventory estimates that 
in 2014 oil and gas industry operations released 9.8 million 
metric tons of methane into the atmosphere, and that was a 34 
percent increase over their previous estimates. That amount of 
methane packs the same climate punch over the first 20 years 
after it's released as the CO<INF>2</INF> emissions for more 
than 220 coal-fired power plants. And 220 plants is more than 
half of the coal plants we have in this country.
    But the good news is that doing something about methane 
pollution, including complying with methane--EPA's methane 
rules, can be accomplished at low cost using existing 
technology. ICF Incorporated did a landmark study in 2014 in 
which they found that a relative handful of specific remedial 
actions could yield a 40 percent reduction in methane emissions 
from the oil and gas sector at an average cost of about 1 cent 
per 1,000 cubic feet of gas produced.
    As I mentioned, EPA's recent inventory reflected an 
increase of 34 percent over previous estimates, but we would 
suggest that that number is still understated because 
scientific evidence suggests that even that dramatic revision 
does not reflect the additional methane pollution represented 
by high random emissions coming from a small percentage of 
sites.
    This kind of distribution in which large volumes are 
emitted from a relatively small percentage of sites is 
characteristic of methane leakage in the oil and gas sector. 
For that reason, leak detection and repair programs such as 
those required by EPA's rules and under some state programs, 
are an essential part of addressing the methane emissions 
problems.
    EPA's recently finalized new source performance standards 
for methane pollution build on successful regulatory frameworks 
that have been adopted over the last several years in some 
leading energy-producing States such as Colorado and Wyoming. 
So while we support EPA's action to control oil and gas sources 
of methane emissions from new and modified sources, we also 
strongly encourage the agency to keep making progress toward 
addressing methane emissions from existing sources. Again, 
according to ICF, nearly 90 percent of the oil and gas methane 
emissions in 2018 will have come from sources that were already 
in existence by 2012. Again, federal actions build on state 
initiatives.
    Colorado's rules require leak detection and repair programs 
for all wells, both new and existing, conventional and 
unconventional. Altogether, the new rules will remove 100,000 
tons of methane and 90,000 tons of smog-forming volatile 
organic compounds. That's equal to the emissions of all the 
cars and trucks in the State of Colorado today, year after year 
after year.
    Now, I know that this subcommittee is deeply concerned 
about the potential cost to the industry of complying with 
state and federal methane rules, but the good news on this 
issue is not only that cutting methane emissions is generally 
very inexpensive but the cost of methane leak detection surveys 
is relatively low as well. Today, methane inspections can cost 
as little as $250, and of course one of the benefits of the EPA 
regulation is that it's already driving innovation in the 
private sector.
    Today, there are 75 companies in 500 different locations in 
46 States providing methane reduction services and support. 
Regulating methane emissions from both new and existing sources 
is an important and cost-effective step in stopping the worst 
effects of climate change.
    Thank you for the opportunity to testify today, and I am 
happy to take any questions you may have.
    [The prepared statement of Mr. Holstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Mr. Holstein.
    Mr. Ventello, you are recognized for five minutes.

             TESTIMONY OF MR. ANTHONY J. VENTELLO,

             EXECUTIVE DIRECTOR, PROGRESS AUTHORITY

    Mr. Ventello. Thank you, Mr. Chairman, Committee Members.
    My name is Anthony Ventello. I'm the Executive Director of 
the Progress Authority. We're an industrial development and 
economic development agency in the northern tier of 
Pennsylvania.
    I live, work, and have raised a family in the heart of the 
Marcellus Shale formation. We rank first, second, and first in 
statewide shale gas, both in both Bradford and Susquehanna 
Counties, over 5,700 wells, 2,200 drilled, 6.5 billion cubic 
feet per day of production, representing about 245,000 jobs and 
$33 billion of investment.
    The answer lies in vertical integration, utilizing the gas. 
Distribution is critical. Please could I have two slides?
    [Slide.]
    Mr. Ventello. Distribution is critical.
    Next slide.
    [Slide.]
    Mr. Ventello. One of the issues is at a simple very low 
level effect is having some of the most prolific wells in the 
world or 30 MMcf, there was no local distribution. Nobody could 
have access to the gas. We were--we've been able to pipe both 
schools--actually, in a situation where a school actually has 
wells on it, they were able to do a postsecondary school from 
the standpoint of bringing clean natural gas to that location.
    Two hospitals had been built in that region, both having 
natural gas services. In fact, some of the drilling companies 
have participated in the development of that. And you can see 
the immense amount of investment and jobs that have been 
created, 51 million and 35 million and several hundred jobs as 
a result of it.
    Infrastructure, next slide, please.
    [Slide.]
    Mr. Ventello. Infrastructure has been critical. We're now 
looking at--in both virtual and new pipelines where new 
pipelines have been curtailed, there's been several new virtual 
pipelines being developed along interstate corridors both with 
LNG--liquefied natural gas--and CNG--compressed natural gas--
but it's--we have to get the gas to locations to be utilized 
and marketed.
    Under the energy generation, next slide, please.
    [Slide.]
    Mr. Ventello. I just toured two brand new facilities in our 
region. One is an 829 megawatt combined cycle facility, Panda 
power station, about 900 million of new investment, eliminating 
oil and coal facilities, as well as to your--the smaller 
facility, 20 megawatts, there's seven proposed in our area. 
I've just toured the second completed one, but they also 
represent about 20 million in jobs created along with those.
    One of the interesting elements is that combined heat and 
power has been a massive undertaking, and a lot of our larger 
facilities both in education, industrial development, or 
manufacturing, and as well as hospitals have been getting 
involved in combined heat and power projects under 
construction.
    In the instance of hospitals, you're seeing one mainly only 
because of medical record demand now with the, you know, 
increased automation. Cornell University, GTP, and Procter & 
Gamble, two of which I want to identify, but again, substantial 
investment, substantial support of job creation.
    And one I want to identify for you is a 30 megawatt 
combined cycle station that's at Cornell University. They're 
very proud of this. I toured this facility. Keep in mind it has 
substantial support of over 12,000 employees and 21,000 
students, and it's an anti-natural gas institution. They're 
very proud of that facility.
    Infrastructure along the lines of CNG, we have both public 
fueling stations, compressed natural gas stations, private as 
well as public transportation is now being funded with--or 
fuel, excuse me, with compressed natural gas.
    Next slide, please.
    [Slide.]
    Mr. Ventello. Industrial utilization has led to a lot of 
utilization and innovation with natural gas. Over 5,500 local 
jobs are being supported with natural gas.
    We have strong manufacturing with natural gas in an effort 
to re-shore manufacturing into the United States is critical 
upon having cheap, clean, cost-effective natural gas available.
    A worldwide example, I claim this is the worldwide example 
of natural gas utilization, and there's not a better example of 
it. Procter & Gamble has about 1,500 acres. They have the 
luxury of unconventional drilling on their site. They have a 
net zero cost for both energy generation, thermal demand, and 
of course they call it tri-generation. Now, they're a paper 
producer. They use hot air, which is usually a waste produce 
from combined heat and power but supporting over 3,000 
employees at that location.
    Gas to liquids, this is an innovative project. Most people 
don't realize this has gone on--global tungsten, GTP in 
Towanda, Pennsylvania, has--one of the largest users of 
hydrogen in the United States. They've now--they--most of their 
hydrogen came--next to NASA, most of their hydrogen came from 
both the Gulf States and Canada, and now they produce and crack 
their own hydrogen at that particular location, about a $15 
million investment.
    We also have gas-to-liquids projects being proposed with 
regards to clean diesel fuel, unleaded gas, wax, lube oils, and 
they're moving along because of the opportunity with gas.
    This project I think I need to identify to you. This is a 
company that's using produced water flow back, and they're 
actually recycling it and crystallizing it and utilizing those 
crystals now, breaking them further down into chemicals to be 
used in industry throughout the region.
    I want to talk in terms of money that's being invested back 
into the local counties, Act 13, about 70 million between two 
counties for public safety. I want to highlight environmental 
conservation, site development, and housing. All of those are 
being invested in in our area.
    Here's an example of two housing projects, both elderly--
that was a burned-out furniture store at--in the upper area 
that's now about 40 units of residential elderly housing and of 
course moderate-income housing at the lower level, both 
naturally gas-served.
    Locations are being developed substantially by the fact 
that we have compression stations, locations with pipelines. 
There are target locations for vertical integration throughout 
our region, and we've identified those and are working with 
companies to try to locate there.
    [Slide.]
    Mr. Ventello. This is just a slide to show you all the 
elements that get involved in natural gas from the standpoint--
all the features from the standpoint of well pads, water 
withdrawal locations, compression, and pipelines.
    One thing I think is extremely critical is the fact that 
agricultural production is on the rise in our area. As a 
result, in 2008 it was on the decline. The Marcellus Shale, 
since then, it's been on an incline. And if I can just 
summarize it by saying natural gas has been a complementary 
land use and has kept land in large parcels, which is conducive 
to agriculture and maintains a rural way of life. I can--all 
aspects of--soybean, beef, swine, egg production, and niche 
farming has been on the rise because farmers now have some 
income to reinvest in the farm.
    And I just want to summarize by saying that increased 
regulation will reverse the established initiatives that we 
have in environmental benefits, economic investment in jobs, 
and energy independence with overregulation.
    I want to thank the committee for the opportunity.
    [The prepared statement of Mr. Ventello follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Mr. Ventello.
    I'd like to thank all of the witnesses for their 
testimonies. Your written testimonies will be made part of the 
record. So even though this might be a short hearing, we have 
all of your information here with the committee.
    Members are reminded that committee rules limit questioning 
to five minutes. I'll recognize myself for the first five 
minutes.
    Dr. Weinstein, you're an economist. Do the benefits of the 
methane rule outweigh the costs, and can you explain?
    Dr. Weinstein. I don't believe so. I think there are costs 
that are currently unaccounted for and typical, you know, EPA 
cost-benefit analysis. But don't misunderstand me. I think, you 
know, methane releases are a serious environmental issue. I 
just believe there are better ways to deal with these issues.
    I actually attended a seminar two days ago. It was actually 
a webinar, and it was sponsored by Stanford University and 
Resources for the Future. They made some very good points. And 
actually, Mr. Holstein mentioned one of them. The huge amount 
of methane release comes from what are called super-emitters. 
Well, I don't believe a kind of blanket regulation that would 
apply to, you know, all producers of natural gas, oil, 
transmission companies, what have you makes any sense if we 
can--you know, if there are, you know, targeted areas that can 
be addressed in terms of controlling emissions.
    You know, there are a number of other specific areas that I 
think can be dealt with a lot more simply than passing a new 
slew of federal regulations. Another source of omissions is 
orphan wells. The States have traditionally done--dealt with 
orphan wells and any emissions associated with that.
    We also have some old cities in the Northeast where there 
are pipelines that are leaking methane. I don't see where, you 
know, EPA has a role to play there. It makes a lot of sense for 
the cities and the States to initiate policies and take steps, 
along with the distribution companies, to replace those old 
lead pipelines. And that is going on.
    So on balance I think what's being proposed in terms of new 
regulations from EPA on methane emissions, that the costs 
overall are going to far exceed any benefits.
    Chairman Bridenstine. As far as when you think about the 
cost and the benefit regarding our impact as one country in the 
entire world, does that change the calculus?
    Dr. Weinstein. I would put it this way. If the rest of the 
world were doing what we're doing in terms of both, you know, 
regulatory and private policies towards reducing greenhouse gas 
emissions, that would do a lot more to address climate change 
concerns than just what we do in the United States. As I showed 
in those two slides, you know, with little--how should I say--
little impact from regulations per se, we have seen a 
tremendous drop in CO<INF>2</INF> emissions. We've seen a drop 
in methane emissions as well.
    And I go back to the fact that we're not a stagnant 
economy. We're a growing economy. We're almost as--twice as 
large as we were 20 years ago. We've had 100 percent increase 
in oil and gas production, and yet emissions are falling. So 
the industry must be doing something right.
    Chairman Bridenstine. Mr. Milito, I wanted to get you on 
the record. Could you please describe the technological 
advances that the industry has made to reduce methane 
emissions?
    Mr. Milito. Yes, there are several. I think the first one 
you look at is what we call reduced emission completions, also 
called green completions. And this is an industry of solutions, 
and we understand that methane is a main component of natural 
gas so we want to capture it. We want to sell it, and we want 
to put it into the market. And one of the technologies that 
have been----
    Chairman Bridenstine. Can you make sure your--is your mike 
on?
    Mr. Milito. Sorry.
    Chairman Bridenstine. Okay.
    Mr. Milito. Appreciate that. I was talking about how the 
industry is an industry of solutions, and when we--when we're 
looking at an issue like methane, we're looking at the primary 
component of natural gas. It's the product that this industry 
sells, every incentive to make sure we're capturing it. And one 
of the areas that we realized we need to be proactive was when 
we're done with hydraulic fracturing and putting the well into 
production, the period called completion so we put together 
equipment and machinery to make sure that that process doesn't 
result in venting of gas, venting of methane, and that we're 
actually capturing it and using it for on-site fuel or for 
putting it into the market.
    Other examples are reduction in the use of pneumatic valves 
and controllers that utilize natural gas and sometimes vented 
off, taking those away from the equation or moving to lower-
venting ones, eliminating emissions from storage tanks, and the 
list goes on. But the idea here is that we are an industry that 
has been very active in deploying these technologies well 
before EPA put any regulations forward. And I would say that 
the EPA regulations are in many respects a lagging indicator of 
the industry because they're based upon technologies the 
industry has proactively developed.
    Chairman Bridenstine. Now, when you think about the study I 
mentioned earlier from Energy In Depth, we're talking about a 
change in global temperatures of .004 degrees Celsius over the 
next 84 years. Does that assume that the technological advances 
that are currently being made are not implemented or are 
implemented?
    Mr. Milito. Well, I think there's different ways to look at 
it. One way to look at it is understanding U.S. overall GHG 
emissions, of which methane constitutes ten percent, of which 
U.S. oil and gas methane emissions are about four percent. So 
think about that. We're talking about four percent of total 
greenhouse gas emissions, of which these rules are intended to 
maybe get 40 percent.
    So you're--we're not talking about fractions of U.S. 
greenhouse gas emissions that these rules are intended to go 
after, yet at the same time, it's unclear if they're going to 
provide any appreciable benefit beyond what the industry is 
already doing. So we're adding tremendous costs that could be 
ultimately applied to a million wells, ultimately impacting the 
consumer in a very negative way because when our supply goes 
down, what happens to prices? The pressure is upward on prices. 
So we've got a very--we've got to question the types of actions 
when we're talking about fractions in the overall scheme of 
things.
    Chairman Bridenstine. Copy that.
    I'd like to recognize Ms. Bonamici for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Before I begin my question, I just want to comment on the 
opening statement of the Chairman. There was a citation to a 
NOAA study for the premise that the U.S. energy industry 
contributes little to the overall burden of global fossil fuel 
emissions. I'm a little concerned about the attribution of that 
comment because the NOAA study did not separate out United 
States from global emissions. So we're just for the record 
going to be following up to--with NOAA and correcting--putting 
any correcting information in the record.
    Mr. Holstein, we talked a little bit about Aliso Canyon and 
how alarming that was and the thousands of people who had to 
evacuate and many became ill, and I know no one wants to see 
that kind of incident repeated. So would you please talk a 
little bit about what can be done to prevent similar incidents 
in a newly constructed facility? And importantly, will you 
please address the notion that's come up both in some of the 
statements from the dais but also in some of the testimony that 
voluntary efforts will be sufficient? Can you address that 
issue? Will voluntary efforts be sufficient without the EPA's 
involvement? Thank you.
    Mr. Holstein. Certainly. Thank you. Aliso Canyon was a 
terrible tragedy, and I know your question was--is about new 
facilities of that kind, but we should note that there are 
400--some 400 similar facilities all around the United States, 
and so we do need to be concerned about the existing facilities 
as well.
    But with respect to both those and especially a new 
facility, the single most important thing to address in the 
construction of a new storage facility would be well integrity. 
And now, typically, these facilities make use of old oil and 
gas--depleted oil and gas fields in order to re-inject natural 
gas into those fields for long-term and sometimes short-term 
storage also in order to help meet spikes in demand that may 
occur during a heating season, for example, and--or for sudden 
surges in demand for electricity in the summertime.
    So the first step, of course, is well integrity, to make 
sure that you've got the well constructed correctly. The second 
category of actions you want to take is to have a leak 
detection and repair set of protocols so that you see what's 
happening so that you can get a handle on these problems before 
they become a 3- or 4-month disaster requiring thousands of 
people to be evacuated.
    And indeed, just 2 days ago, the company responsible for 
that leak did agree to a comprehensive new set of leak 
detection and repair protocols in their legal discussions or 
negotiations with the county. The State is still developing 
their case, but I think the fact that there is this focus on 
using the new leak detection technologies that are becoming 
available is instructive for the larger issues relating to 
methane.
    Ms. Bonamici. And what is your response to the suggestion 
that the industry can address this issue without regulation?
    Mr. Holstein. If we look at the scale of the problem, which 
I--which has been detailed by EPA's recent inventory showing a 
34 percent increase over the previous estimates, but in 
particular if we look at the power of the methane molecule, 
it's an enormously powerful, nasty climate actor, and as you 
stated, 84 times more powerful than a molecule of carbon 
dioxide. And that--what that really means is we can't afford to 
wait for the industry to play catch-up with the science.
    And part of the problem that the industry has--Dr. 
Weinstein is correct as far as he goes in saying that these 
random events are significant, but the emphasis I have to place 
is on the word random. You--a lot of this is counterintuitive. 
You can't simply take--make an assumption that old facilities 
are going to leak more than new facilities or the other way 
around, enormously random and that's why you need comprehensive 
leak detection.
    Ms. Bonamici. And can you talk a little bit about--you 
mentioned Colorado. They were successful in developing----
    Mr. Holstein. They were.
    Ms. Bonamici. --regulations and how is that working in 
Colorado?
    Mr. Holstein. Oh, it's working spectacularly well, and the 
best example I can give you of that is the fact that they've 
removed pollutants from the air there as a direct result of 
those rules equivalent to all the cars and trucks on the road 
in the State of Colorado. And I would note that those rules, 
which are really national--you know, really leading the 
country, those rules were put in place with the collaboration 
of the three largest oil and gas developers in that State at 
the time.
    Environmental Defense Fund was there as well to help 
provide some technical input as well. And it was an open 
process, but it was truly led by the industry in saying we do 
need a comprehensive set of rules, we need them uniform, and we 
need the rest of the industry to get on board.
    Ms. Bonamici. Terrific. Thank you very much. And my--I see 
my time is expired. Thank you, Mr. Chairman.
    Chairman Bridenstine. Before going to Chairman Smith, Mr. 
Milito, would you comment on Aliso Canyon and how it relates 
specifically to the rule?
    Mr. Milito. Yes, Aliso Canyon is a very serious situation, 
something we never want to see happen, don't want to see happen 
again, but it's completely unrelated to the EPA rules we're 
talking about today.
    We take this very seriously. And the oil and gas industry, 
as I mentioned, is an industry of solutions. We as API are a 
standard-setting organization. We create the standards for safe 
and environmentally responsible operations that are relied upon 
around the world. That's how we started.
    We have two new documents related to underground storage to 
make sure this type of incident doesn't happen. They relate to 
issues such as well integrity so we've come forward with a 
solution.
    The other thing I would add is this is not being ignored by 
the federal government. It's not an EPA issued. PHMSA is 
looking at this and addressing it and working with an 
interagency task force that includes API, our companies, and 
we're moving forward in a way where the companies are already 
implementing these standards. So it is wrong to conflate Aliso 
Canyon with emissions of methane from production facilities. 
They're totally separate issues.
    Chairman Bridenstine. Thank you. I just want to get that on 
the record.
    Chairman Smith, you are recognized for five minutes.
    Chairman Smith. Thank you, Mr. Chairman.
    First of all, let me say it's a credit to our witnesses 
today and to the importance of the subject matter that so many 
members came back after our only vote of the day to be at this 
hearing.
    I just want to follow up before I get to my first question 
and say I agree with those who have expressed the sentiment 
today that obviously methane and carbon emissions have been 
going down but largely because of technological breakthroughs. 
The last thing we need are more government regulations which 
are ineffective and don't have any significant impact. It is 
much better to let technology provide the solution, as it 
always has for the history of our country. The mindset that the 
government knows best is not, I think, a productive mindset.
    Mr. Milito, let me address my first question to you and it 
is this. In what ways do you feel that the EPA has misled us 
when it comes to the benefits of the methane regulations?
    Mr. Milito. Well, I think this gets back to the underlying 
science and whether or not we have a system, an economy, an 
industry that are already effectively addressing the methane 
issue. And if you look at some of the research of Environmental 
Defense Fund, you know, they've come forward and said, you 
know, if we keep supply chain emissions of methane below a 2.7 
to 3.2 percent range, we get the environmental benefit. Now, 
the EDF studies that look at the equipment on sites, the EPA 
inventory, this data shows that 1.5 percent, maybe 1.8 percent, 
all the data shows we're well below that.
    So we are in a situation right now where the data shows 
that we get this huge benefit from producing natural gas 
because it's clean burning not just from the climate change 
standpoint but from traditional pollutants as well, things like 
NOx, SOx, particulate matter. So we are winning. We're doing 
what we need to do----
    Chairman Smith. Exactly.
    Mr. Milito. --without the regulations.
    Now, we have EPA regulations put forward. They do a 
regulatory impact analysis. It's a wash. If you look at EPA's 
own numbers, it's a wash, but then when you go back and apply 
the real data, the better data, the more certain data, it shows 
that in a year like 2025 and beyond we can be looking at cost 
more than $1 billion----
    Chairman Smith. Yes.
    Mr. Milito. --from a ruling.
    Chairman Smith. Mr. Milito, this is exactly the information 
we need to get out, and I thank you for making those points.
    Dr. Weinstein, in what ways is the modeling system used by 
the EPA flawed or biased?
    Dr. Weinstein. I'm not really qualified to speak about the 
specifics of the EPA models. I have not studied them. My----
    Chairman Smith. Okay.
    Dr. Weinstein. My knowledge or my understanding is solely 
based on----
    Chairman Smith. Okay. That's perfectly fine.
    Dr. Weinstein. Okay. Yes.
    Chairman Smith. We'll come back in a minute.
    Mr. Ventello, let me ask you about the impact of the EPA 
regulations. And I might ask Dr. Weinstein and Mr. Milito as 
well. What is the impact of the regulations likely to be on 
economic growth and job creation?
    Mr. Ventello. Well, I--you know, I--from the standpoint of 
the industry itself, additional burden with low cost right now 
with pricing being down, as well as the fact that the industry 
has been pretty much self-policing. We see a lot of 
improvements in what they've done. And of course, as has been 
stated, the--you know, the release of methane is a loss of 
dollars, so there's a lot of effort to try to make sure that 
they do things with--to current standards.
    But in essence, right now, in a low-cost environment it 
would have a substantial impact long-term just because of 
additional cost in nod only improving the wells but also 
completions and transmitting.
    The key really lies in moving the gas so that you can 
minimize the amount of methane that is emitted from an idle 
situation.
    Chairman Smith. Okay. Thank you.
    Dr. Weinstein. But we tend to forget that we are the 
world's number one natural gas-producing country, and that 
we're also getting into the business of exporting natural gas. 
That has tremendous economic benefits in addition to the 
environmental benefits of natural gas that we've discussed. The 
fact that we are number one, that this is an industry that is 
not only empowering the U.S. economy but employs lots and lots 
of people and now we're getting into the export business.
    So I think we need to be very careful in assessing new 
policies and regulations that can make it more expensive for us 
to produce and sell natural gas unless there's overwhelming 
evidence that the benefits of regulation exceed the cost.
    Chairman Smith. Okay. Thank you, Dr. Weinstein.
    Mr. Milito, what about you? What about the economic impact 
and what about the impact on jobs?
    Mr. Milito. It could be huge. The general rule--I'm sorry. 
I've got to get better with my button here. It could be huge. 
The general rule of thumb, based upon--and what about a lot of 
the economists will look at is that for each Bcf of production 
that we have of natural gas in the United States, you get 
32,000 jobs. So we've gone from 52 Bcf per day in 2007. We're 
at about 74 now, so, you know, just do the math and we're 
talking hundreds of thousands of jobs.
    So you have regulations that could increase the cost on the 
industry dramatically. A more recent ICF study shows it could 
be $3.35 per Mcf, and that's based upon applying a lot of the 
same technologies EDF says will cost a penny. Natural gas now 
is $2.90. Doubling the cost of developing a resource or a 
product that you're selling for $2.90, it just could be 
devastating to consumers overall.
    Chairman Smith. All right. Thank you, Mr. Milito. Thank 
you, Mr. Chairman.
    Ms. Bonamici. Mr. Chairman?
    Chairman Bridenstine. Thank you, Mr. Chairman.
    Ms. Bonamici. Mr. Chairman, may I--before we go on, because 
Mr. Milito mentioned the EDF and Mr. Holstein is here, is it 
appropriate to have Mr. Holstein respond to the mention of his 
work?
    Chairman Bridenstine. We can--let's go to Ms. Edwards, and 
then maybe she can yield.
    Ms. Bonamici. Thank you.
    Chairman Bridenstine. Okay. Ms. Edwards, you're recognized 
for five minutes.
    Ms. Edwards. I might yield. Thank you very much, Mr. 
Chairman, and thank you to the witnesses as well.
    Mr. Holstein, in his testimony Dr. Weinstein described the 
methane regulations as a ``solution in search of a problem,'' 
and I wonder if based on your testimony I suppose you would 
disagree with that. You mentioned that the knowledge base for 
methane is just kind of catching up. We have a huge knowledge 
base for CO<INF>2</INF> emissions. Where relatively would you 
put our knowledge base of methane emissions with respect to 
carbon--to CO<INF>2</INF>?
    Mr. Holstein. I would say catching up fast. Five years ago, 
nobody was paying attention to methane as a major climate 
pollutant. The NOAA study that was referred to earlier in its 
very first sentence references the fact of--that there are 
emissions that are of concern and throughout that study 
mentioned methane prominently.
    Mr. Milito did mention EDF studies. I actually appreciate 
that mention because I think it's been remarkable how we've 
come together on the environmental side with the industry in 
conducting some of these studies, which are peer-reviewed and 
which are supervised by--and designed by outside independent 
scientists.
    We can disagree about what the policy implications of those 
results are, but I do have to correct him on one point, which 
is we believe that the cumulative result of our scientific work 
show that we need to get methane emissions from this sector 
down at or below one percent, not 2.7, at or below one percent 
if you're going to have an improvement over what you would 
otherwise get if you were, for example, burning coal.
    Ms. Edwards. So let me ask you a little bit about that 
because I think there's some confusion. First of all, the EPA 
regulations that we have discussed, EPA has imposed 
regulations--has put forward final regulations on new and 
future methane productions, right?
    Mr. Holstein. Yes.
    Ms. Edwards. And they have not done any regulating on 
existing--there are no proposed regulations on existing 
operations, is that correct?
    Mr. Holstein. Also correct, yes.
    Ms. Edwards. And so we're really speculating here as to 
what EPA's going to do just because they're gathering 
information. It's kind of their job to gather information, 
isn't it?
    Mr. Holstein. It is.
    Ms. Edwards. So--and--so I wonder, can you also clarify, 
natural gas is still a fossil fuel, right?
    Mr. Holstein. It is.
    Ms. Edwards. And it's cleaner-burning than coal and other 
fossil fuels, is that right?
    Mr. Holstein. Yes.
    Ms. Edwards. Which is good. But there are still 
environmental impacts and public health impacts for--from 
methane emissions?
    Mr. Holstein. Yes, and it's cleaner-burning relative to 
coal--to answer your question of a moment ago--only if you get 
the emission--the fugitive emissions down at or below one 
percent. And that is not where we are, and that's where we need 
to be. Otherwise, those environmental benefits simply don't 
accrue.
    Ms. Edwards. And so in your examination of some of the 
industry-led reports of cost-benefit analyses, do they take 
into consideration--in your experience, do they take into 
consideration the public health cost?
    Mr. Holstein. They often do not, and I gave the example of 
Colorado where the measures that are undertaken--and remember 
this was a program put in place with the collaboration and 
cooperation of industry itself, the biggest producers in the 
State--puts the industry in the position of under--in Colorado 
of taking huge amounts of pollutants out of the air, not just 
the climate change.
    If you didn't care about climate change at all, you would 
still welcome the dramatic reductions in smog-forming ground-
level ozone and in the volatile organic compounds that include 
toxic air pollutants. And there, we're talking about premature 
deaths, asthma, hospitalization. And I refer you to the 
American Lung Association's letter on this point of December, 
which we'd be happy to submit for the record.
    [The information appears in Appendix II]
    Ms. Edwards. Thank you. And so my time is running out here. 
And so I want to give Mr. Milito an opportunity to respond. In 
your testimony, you say there are significant costs--you're 
referring to the regulations--without commensurate benefits. 
Does your analysis take into consideration public health costs, 
as well as the economic costs?
    Mr. Milito. We are looking at this from a climate 
standpoint. Methane is not a toxic pollutant. This is a climate 
question that we're talking about, and we're looking at whether 
or not we are achieving methane emission reductions without the 
costs imposed by the regulations. So we are----
    Ms. Edwards. It is a fossil fuel though, right? It is a 
fossil fuel?
    Mr. Milito. It is a fossil fuel.
    Ms. Edwards. And so--and it does still have some of the 
same public health costs as other fossil fuels, maybe just not 
to the same extent, isn't that right?
    Mr. Milito. Well, it's providing an environmental benefit 
to the public when you use it rather than other natural gas--
other fossil fuel-powered power plants.
    Ms. Edwards. Thank you, Mr. Milito.
    Chairman Bridenstine. The gentlewoman yields back.
    I just want to make it clear on the record, back in May EPA 
Administrator McCarthy stated that she will expedite issuing 
regulations for reducing methane emissions from existing 
sources, so that is not speculation. That comes from the EPA 
Administrator Gina McCarthy.
    I now recognize Mr. Palmer for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman. I'd just like to point 
out that there's still serious debate over whether or not the 
climate is warming. I think there's research out that says we 
haven't had a significant increase in temperature in 18 years 
so--that's probably--Mr. Chairman, probably going to make me 
subject to some kind of government retribution or a trial or 
something. I don't know. That is going on with some of these AG 
trials.
    Mr. Weinstein, according to the Environmental Protection 
Agency's own estimates, methane emissions in the United States 
have decreased by six percent between 1990 and 2014. During 
that time period, has natural gas production in the United 
States increased or decreased?
    Dr. Weinstein. It's increased about 70 percent.
    Mr. Palmer. If we do nothing at all, will the methane 
emissions from oil and natural gas sector continue to decrease?
    Dr. Weinstein. Yes, I believe so. As we've heard from Mr. 
Milito, the industry is embracing the best available technology 
to capture methane, and that is one of the reasons that we see 
this long-term decline.
    Mr. Palmer. And one of the reasons that we have such 
abundant supplies of natural gas now is because technology, is 
that correct?
    Dr. Weinstein. That's correct.
    Mr. Palmer. And it continues to improve almost on a daily 
basis, is that correct?
    Dr. Weinstein. Yes. It's really incredible if you consider 
that the rate count is down 70 percent over the last two years 
and gas production is only down about seven percent. That 
indicates that we're getting much more efficient in our ability 
to produce----
    Mr. Palmer. Methane capture at the wellhead technology--
that technology is increasing at a rapid rate. Is that also 
true?
    Dr. Weinstein. Yes, it is. And most States do have 
standards for, you know, capturing methane.
    Mr. Palmer. And the methane that's emitted from wellheads 
is a relatively small amount compared to other methane sources, 
is that correct?
    Dr. Weinstein. In the overall scheme of things, yes.
    Mr. Palmer. Mr. Milito, EPA issued five technical white 
papers covering compressors, emissions from well completions, 
leaks, liquids unloading, and controllers and pumps. Did the 
EPA properly take into account concerns that were raised by 
various stakeholders during the supposed peer-review?
    Mr. Milito. Not all the concerns that we had with the 
rules, particularly with the targeting of methane as the 
pollutant in this case. We felt that we could have done it 
without that.
    Mr. Palmer. In your experience and observations, does EPA 
actually take into account these concerns or does it simply 
find friendly reviewers who will rubberstamp its agenda?
    Mr. Milito. Well, I----
    Mr. Palmer. That's a loaded question but I'd like for you 
to give me your opinion
    Mr. Milito. Well, you know, I would like to say that the 
process that we're going through with EPA is actually better in 
many respects than what we're seeing with the Bureau of Land 
Management. We have meetings with EPA. We talk about them. We 
talk about our technology so there's a lot of back-and-forth so 
I would commend them for that. And they're going through a 
process for understanding what the data is before they move 
forward with potential regulations on existing sources.
    On the other side of the house, we have Bureau of Land 
Management putting forward regulations for existing sources on 
federal lands without the benefit of all that data and all that 
knowledge. So the preferred path, if you're going to have a 
path, is to go through and have an analysis of the data before 
you move forward and try to rush regs through.
    Mr. Palmer. Well, despite all the voluntary reductions and, 
as Mr. Weinstein pointed out, we continue to have reductions in 
methane emissions despite the fact that gas production has gone 
up tremendously. It kind of comes across like the government is 
selectively focusing on your industry, ignoring the benefits.
    You know, it's such a contradiction here that they're 
concerned about greenhouse gas emissions and they force the 
coal industry basically to go bankrupt, as promised by our 
President when he was campaigning the first time. They've 
destroyed thousands and thousands of jobs. They've forced power 
companies to convert from coal to natural gas. And even though 
natural gas prices have come way down, energy costs have gone 
up.
    It just concerns me that there is not a balanced approach 
to this in regard to looking at the economic benefits and the 
benefits in terms of reduction of greenhouse gases versus the 
benefits--versus whatever very limited impact that methane 
might have. It just--it appears to me there's another agenda 
here.
    I appreciate the time, Mr. Chairman. I yield back.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the gentleman from Texas, Mr. Weber, for 
five minutes.
    Mr. Weber. Thank you, Mr. Chairman. Gosh, I don't know who 
to direct this to. I'll just make a comment. On Ecology.com 
they made the statement that fossil fuels were--I just kind of 
read their statement. It looks like they're not--don't have a 
big problem with them, but the problem with them was they 
weren't renewable and that one day we would run out of them.
    Now, it may interest you to know that that article was 
written by Eric McLamb on September the 6th, 2011. So things 
change.
    You know, it seems like there was a rush to judgment. The 
EPA has decided that fossil fuels are bad, and I keep hearing 
questions from my colleagues over on the other side here, they 
keep saying, well, but it's a fossil fuel, isn't it, as if 
somehow that's the kiss of death, I guess.
    Mr. Milito, EPA issued five technical white papers covering 
compressors, emissions from well completions, leaks, liquids 
unloading, and controllers and pumps. Did the EPA properly take 
into account concerns that were raised by various stakeholders 
during that supposed peer-review?
    Mr. Milito. No, the final documents that were--I don't even 
know if they released five. I think that after taking comment, 
they didn't make any changes to the document so nothing was 
incorporated from the public input standpoint. They just stuck 
with the--really the original peer-reviewed documents.
    Mr. Weber. So it was all an exercise in futility is what it 
sounds like.
    I own an air-conditioning company 34 years. I've dealt with 
EPA over refrigerant trade name DuPont Freon issues for a long 
time. When I was in the Texas Legislature, we dealt with 
licensing regulations, Texas Department of Licensing 
Regulations, TDLR, on air-conditioning contractors. I wanted 
somebody on the board that actually had experience with air-
conditioning or with--whether it was refrigerant or whether it 
was the actual industry, not somebody that had been through 
school and through class and read the books and decided under 
the tutelage of some professor that their job was to regulate 
greenhouse gases or the evil energy industry. Dr. Weinstein, 
you have a comment?
    Dr. Weinstein. Well, you make a very, very good point. I 
think the environmental community overall is trying to tar the 
oil and gas industry as being evil like the tobacco industry. 
As we sit here today, there was a demonstration going on in 
front of the White House by the Keep It in The Ground movement, 
and this movement is growing.
    So there's so much misinformation about energy, fossil 
fuels. Not all fossil fuels are created equally. I mean, there 
are lots of reasons that we're using less coal.
    Mr. Weber. Actually, they are created equally. They just 
decay at different levels. Go ahead.
    Dr. Weinstein. Well, that's one way to look at it.
    Mr. Weber. Okay.
    Dr. Weinstein. But--yes, so the political environment in 
which regulation is being crafted today is very highly charged, 
and unfortunately, there doesn't seem to be a middle ground or 
a rule of reason. There's this growing perception that fossil 
fuels are bad. The environmental community used to think that, 
oh, natural gas, that's a great bridge to the future. Now, they 
say it's a bridge to nowhere.
    Mr. Weber. Well, it's a fossil fuel----
    Dr. Weinstein. But----
    Mr. Weber. --as if that's something bad.
    Dr. Weinstein. But the reality is the Department of Energy 
says that fossil fuels are going to remain our primary energy 
source for the next 40 or 50 years, and that's good news.
    Mr. Weber. And, Dr. Weinstein, we have how many years of 
natural gas by some estimates----
    Dr. Weinstein. That----
    Mr. Weber. --1 or 200 years?
    Dr. Weinstein. That changes by the day. I mean----
    Mr. Weber. Right.
    Dr. Weinstein. --there was a discovery----
    Mr. Weber. Yes.
    Dr. Weinstein. --just a couple of days ago in West Texas, 
you know the High Alpine----
    Mr. Weber. Absolutely.
    Dr. Weinstein. --this huge, you know, billions and 
billions----
    Mr. Weber. Eight billion, right.
    Dr. Weinstein. --of cubic feet of natural gas----
    Mr. Weber. Well, the article I cited from Ecology.com we're 
going to run out of natural gas--this is September the 6th, 
2011, clearly before the--Mr. Milito, you also said--I missed 
the numbers in your earlier testimony--that one billion cf of 
natural gas produces how many jobs? You quoted----
    Mr. Milito. One billion, Bcf per day of natural gas equates 
to approximately 32,000 jobs.
    Mr. Weber. Thirty-two thousand jobs. One of the things I 
say when I speak to groups around the country is that the 
things that make America great are the things that America 
makes. Now, how do we do that? We have a reliable, affordable, 
dependable, clean source of energy for the most part. I get 
there's problems where the pipelines rupture and you were 
talking about PHMSA earlier, and of course you know the 
pipeline industry, Mr. Milito, has a 99 percent safety rating.
    And so for this idea to be that somehow we've got to kill 
all this fossil fuel energy and go on either solar or wind--and 
that's not even discounting for nuclear that I used to have in 
my district when I was in the State Legislature--it just 
boggles my imagination that we've got an agency that we have 
reduced their budget to--by $420 million into pre-1989 levels 
and they're still pumping out regulations, as you pointed out, 
with a supposed comment period. They're still pumping out 
regulations at a record rate.
    I think we need some cooler heads to prevail, and I think 
we need some logic to prevail. You know, the EPA is supposed to 
take into account the effects on what it does to the industry 
before they issue regulations, and we really quite frankly 
don't see them doing that, and I hope that Congress exercises 
its oversight control and gets that under control. And I 
appreciate you all being here to testify.
    Mr. Chairman, I yield back.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the gentleman from Texas, Mr. Babin, for 
five minutes.
    Mr. Babin. Thank you, Mr. Chairman.
    Mr. Ventello, according to the Centers for Disease Control 
and Prevention, excessive heat is the leading cause of 
preventable weather-related deaths each year, particularly 
among the elderly. In June of 2013, President Obama in a ``New 
York Daily News'' editorial stated that ``The bottom line is 
natural gas is creating jobs. It's lowering many families' heat 
and power bills.'' Do you find it ironic that these deaths from 
excessive heat could be prevented by electricity--cheap, 
reliable natural gas from Pennsylvania or even New York instead 
of lowering electricity usage that has been encouraged by 
Governor Cuomo?
    Mr. Ventello. Yes, it is ironic. We--with the surge of 
the--of this cheap fuel, obviously the industry itself--energy 
generation is probably the most prolific if you will 
development with natural gas that reaches more people than any 
other single use of natural gas. We all use electricity. So to 
answer your point, yes.
    Mr. Babin. Okay. And then do you think citizens have been 
misinformed by the media and certain advocacy groups about 
natural gas well operations?
    Mr. Ventello. Yes, I believe so. And let me give you a--
just a simple example.
    Mr. Babin. Okay.
    Mr. Ventello. Our Emergency Operations Director if a--for 
instance, if a tanker of diesel fuel spills delivering fuel to 
a family farm, that's one day's news. If a vehicle or some sort 
of an accident happens with a gas-related vehicle, he gets a 
call from the media looking for that separation. That becomes 
news in the New York Times. I see it all the time. People send 
me that information. So yes, there is a strong misinformation.
    I think the best thing--the most powerful thing I can do is 
ask people to come there and see it and make up their own 
minds.
    Mr. Babin. Do you think that these advocacy groups are 
aware of the progress that has been made in this industry on 
reducing methane emissions?
    Mr. Ventello. I think that they--in many cases they may be 
but there's nothing you can say that will convince them to 
change their minds.
    Mr. Babin. I got you. And then how would poorly thought-
out, hasty regulations stop economic revitalization and 
development that has been occurring in northeast Pennsylvania?
    Mr. Ventello. Simply by placing unnecessarily--unnecessary 
burden by additional costs on the industry, which is already 
moving in the right direction.
    Mr. Babin. And then would it be fair to say that the 
production of natural gas has benefited the entire community 
such as the building of new hospitals, thus improving the 
health quality of all residents of northeast Pennsylvania?
    Mr. Ventello. Yes, and beyond that. Everything that you and 
I use, the industry uses, and there's been an extreme--in many 
cases where the industry has made--been made to pay impact 
fees, those dollars have gone back into a lot of different 
benefits to the general community----
    Mr. Babin. Right.
    Mr. Ventello. --both in health care, as well as housing and 
the like.
    Mr. Babin. Thank you very much, Mr. Ventello, and I 
appreciate all the witnesses today. I yield back the balance of 
my time.
    Chairman Bridenstine. The gentleman yields back. We're 
coming to the end of this hearing.
    Mr. Milito, did you want to--I'll give you about a minute 
if----
    Mr. Milito. Yes, I have a correction----
    Chairman Bridenstine. And then just----
    Mr. Milito. --for Congresswoman Edwards. I'm actually 
looking at our regulatory impact analysis, and we did in fact 
look at the benefits of reducing methane emissions. And in one 
case there are actually--our estimates show that they were 
greater than what the government showed, but at the same time 
we saw the cost appreciably higher, which gives you a much 
lower net benefit overall.
    And I would look at the Intergovernmental Panel on Climate 
Change which states that greenhouse gas emissions from energy 
supply can be reduced significantly by shifting to modern, 
highly efficient natural gas combined cycle power plants.
    So we have the data which shows that we're in a good 
position and it just begs the question as to whether or not 
these regs are required.
    And the last thing I would ask is to get some confirmation 
from the EDF because it's news to me that it's one percent. All 
the studies that we've seen show you have to be lower than 2.7 
to 3.2 percent when it comes to coal. I understand that natural 
gas in transportation might have a different threshold, but I 
think we have to get that information correct, so I think it 
would be good for all of us to learn that because that's good 
information to know.
    Chairman Bridenstine. Mr. Holstein, would you like to take 
a minute to respond to that?
    Mr. Holstein. Yes, just to commit to Mr. Milito that we'd 
be happy to provide it. And we do note two things that have 
been referenced. One is that we absolutely do accept and 
acknowledge the positive role that natural gas has played in 
helping to improve, for example, our air quality and reduce 
greenhouse gas emissions, again, underscoring this point that 
getting a handle on methane how--is critical to ensuring that 
the benefits of gas truly do accrue to the society, to the 
world at large.
    Whether you're concerned about health benefits or climate 
or both, and the voluntary reductions, are--talking about those 
are a mixed bag. The green completions that Mr. Milito referred 
to and some of the other reductions--reduction-driving measures 
that have been taken by industry have been taken as a direct 
result of earlier EPA regulations.
    That's not to say that there aren't good environmental 
values in the industry. I mentioned Colorado where they 
certainly came to the fore. And ONE Future is a good example, 
but ONE Future's membership is now part of EPA's challenge--
Methane Challenge voluntary program, but there are only 10 
companies participating and we need a lot more leadership and 
participation from the industry. And I hope Mr. Milito is right 
that the industry is headed in that direction.
    But we also need, because of some of the complexities of 
measuring, of detecting and responding to methane emissions, we 
do need to have comprehensive methane detection, leak detection 
and repair programs in order to really ensure that the industry 
has the information they need so when this invisible gas is 
leaking, people know where it is.
    I should note in reference to that list of things like 
controllers and valves and that sort of thing, many of these 
components that we've talked about were designed to leak back 
when nobody thought--gave a thought about methane. They were 
actually designed to be driven by the pressures in the gas 
line. So those are examples of things that are easily fixable 
but we need to get on top of it.
    Chairman Bridenstine. Ms. Bonamici, you had something?
    Ms. Edwards. Mr. Chairman--yes. Mr. Chairman, I just wanted 
to note that I was asking about public health benefits, but I'm 
going to submit a question for the record along with a 
statement from nurses and physicians about the public health--
--
    Chairman Bridenstine. Absolutely.
    Ms. Edwards. --costs. So thank you very much for that.
    Chairman Bridenstine. You bet.
    [The information appears in Appendix II]
    Chairman Bridenstine. Do you have something final?
    Ms. Bonamici. No. That----
    Chairman Bridenstine. Okay.
    Ms. Bonamici. --was Ms. Edwards.
    Chairman Bridenstine. Okay. I'd like to thank the witnesses 
for their valuable testimony and Members for their questions. 
The record will remain open for two weeks for additional 
comments and written questions from Members.
    This hearing is adjourned. Thank you all.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Erik Milito
[GRAPHIC] [TIFF OMITTED] T2562.056

[GRAPHIC] [TIFF OMITTED] T2562.057

[GRAPHIC] [TIFF OMITTED] T2562.058

[GRAPHIC] [TIFF OMITTED] T2562.059

[GRAPHIC] [TIFF OMITTED] T2562.060

Responses by Mr. Elgie Holstein
[GRAPHIC] [TIFF OMITTED] T2562.061

[GRAPHIC] [TIFF OMITTED] T2562.062

[GRAPHIC] [TIFF OMITTED] T2562.063

[GRAPHIC] [TIFF OMITTED] T2562.064

[GRAPHIC] [TIFF OMITTED] T2562.065

[GRAPHIC] [TIFF OMITTED] T2562.066

[GRAPHIC] [TIFF OMITTED] T2562.067


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
